 

 

 

IN THE

Supreme Court of the United States

 

GUERLY ALEXIS,
Petitioner,
v.
UNITED STATES OF AMERICA,

Respondent.

 

PETITION FOR A WRIT OF CERTIORARI TO THE
UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT

 

MOTION FOR LEAVE TO PROCEED IN FORMA PAUPERIS

The Petitioner, Guerly Alexis, asks leave to file the enclosed Petition for Writ
of Certiorari to the United States Court of Appeals for the Eleventh Circuit without
prepayment of costs and to proceed in forma pauperis in accordance with Supreme
Court Rule 39, and Title 18, U.S.C., 3006A(d)(6). The filing of this petition is a
continuation of the representation of the defendant under a Criminal Justice Act
appointment of the Office of the Federal Public Defender for the Northern District of
Florida, by the United States District Court. In accordance with Title 18, U.S.C.,

3006A(d)(6), no affidavit as required by Supreme Court Rule 39, need be filed.
WHEREFORE, Petitioner, Guerly Alexis, prays for leave to proceed in forma
pauperis.
Dated this 1st day of September 2021.
Respectfully submitted by,

RANDOLPH P. MURRELL

Federal Public ar af

AssistantFederal Public Defender
Florida Bar No. 0042092

101 S.E. 2™4 Place, Suite 112
Gainesville, FL 32601

Telephone: (352) 373-5823
Facsimile: (352) 373-7644

Email: Megan_Saillant@fd.org
Counsel for Mr. Swatzie

   
